                 AUDIT REPORT

                    Audit of NRC’s Use of Orders


               OIG-12-A-19            September 25, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                                                    Audit of NRC’s Use of Orders



EXECUTIVE SUMMARY

BACKGROUND

     The U.S. Nuclear Regulatory Commission (NRC) is authorized to enforce its
     regulatory requirements by imposing sanctions, such as orders, against licensees
     or other persons subject to the Commission’s jurisdiction who are in violation of
     requirements. An order is a written NRC directive to modify, suspend, or revoke a
     license; to cease and desist from a given practice or activity; or to take such other
     action as may be proper. The Commission's order issuing authority under the
     Atomic Energy Act of 1954, as amended (AEA), Section 161 extends to any area of
     licensed activity that the Commission deems necessary to promote the common
     defense and security or to protect health or to minimize danger to life or property.

     The enforcement program supports the agency’s overall safety and security
     mission, and the NRC Enforcement Policy and NRC Enforcement Manual
     (Manual)—maintained by the Office of Enforcement—are the primary sources of
     guidance for NRC staff implementing the enforcement program. According to the
     Manual, order-issuing authority resides in several offices and regions and order
     followup is dependent upon the type of order, and may consist of inspection activity,
     tracking, and order closure.


OBJECTIVE

     The audit objective was to evaluate the efficiency and effectiveness of NRC’s
     documentation, verification, and closure process for issued orders.


RESULTS IN BRIEF

     Based on the Office of the Inspector General’s (OIG) review of followup for selected
     orders, OIG did not identify instances where the agency did not follow up on the
     recipients’ implementation of the requirements stipulated in orders. However, the
     efficiency and effectiveness of NRC’s documentation, verification, and closure
     process for issued orders can be improved. Specifically, opportunities exist to:

            1. Enhance agency guidance defining order types and for the followup,
               tracking, and closure of orders.



                                            i
                                                                  Audit of NRC’s Use of Orders



          2. Obtain updated documented delegations of authority for issuing orders
             for selected offices.


    ORDER GUIDANCE

    Guidance for following up on orders should be clear and comprehensive; yet, this is
    not the case for all types of NRC orders. This is because some offices have not
    identified, documented, and coordinated order followup, tracking, and closure
    requirements. Improvements to the guidance on orders would support NRC’s
    knowledge management efforts and would better inform licensees and the public of
    NRC’s order process.


    DELEGATIONS OF AUTHORITY

    Commission authorities, including the authority to issue orders, may be delegated
    as per the AEA. The delegations of authority to issue orders for three key officers—
    including the Office of International Programs (OIP) Director, the Executive Director
    for Operations (EDO), and the Chief Financial Officer (CFO)—is documented
    inconsistently. Specifically, the CFO’s authority to issue orders was delegated via a
    Chairman’s memo, whereas agency staff have been unable to locate a similar
    document for the OIP Director and the EDO. Agency staff have not sought a similar
    updated documented delegation of authority for the OIP Director and the EDO to
    issue orders. Absent an updated documented delegation of authority to issue
    orders, the agency could face delays in pursuing enforcement of orders in the event
    of noncompliance by an order recipient.


RECOMMENDATIONS

    This report makes recommendations to improve the agency’s use of orders. A
    consolidated list of these recommendations appears on page 10 of this report.




                                          ii
                                                                Audit of NRC’s Use of Orders



AGENCY COMMENTS

    On August 28, 2012, OIG issued the discussion draft of this report to the EDO. OIG
    met with NRC management and staff on September 6, 2012, at an exit conference
    to discuss the draft report content. At this meeting, the agency provided informal
    comments, which OIG subsequently incorporated into the draft report as
    appropriate. NRC management and staff reviewed the revised draft report and
    opted not to provide formal comments for inclusion in this final report.




                                         iii
                                                          Audit of NRC’s Use of Orders



ABBREVIATIONS AND ACRONYMS

       AEA      Atomic Energy Act of 1954, as amended

       CFO      Chief Financial Officer

       CFR      Code of Federal Regulations

       EDO      Executive Director for Operations

       Manual   NRC Enforcement Manual

       NRC      Nuclear Regulatory Commission

       OEDO     Office of the Executive Director for Operations

       OGC      Office of the General Counsel

       OIG      Office of the Inspector General

       OIP      Office of International Programs




                                  iv
                                                                                      Audit of NRC’s Use of Orders



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................................ i

        ABBREVIATIONS AND ACRONYMS ........................................................ iv

        I.     BACKGROUND ................................................................................. 1

        II.    OBJECTIVE ...................................................................................... 3

        III.   FINDINGS.......................................................................................... 3
                     A. ORDER GUIDANCE……………………………………….. …….3
                     B. DELEGATIONS OF AUTHORITY ............................................... 7

        IV.    CONSOLIDATED LIST OF RECOMMENDATIONS ........................ 10

        V.     AGENCY COMMENTS .................................................................... 11



        APPENDIX

               A. OBJECTIVE, SCOPE, AND METHODOLOGY ......................... 12




                                                    v
                                                                                Audit of NRC’s Use of Orders



I.      BACKGROUND

                The U.S. Nuclear Regulatory Commission (NRC) is authorized to enforce
                its regulatory requirements by imposing sanctions, such as orders, against
                licensees or other persons subject to the Commission’s jurisdiction who are
                in violation of requirements. An order is a written NRC directive to modify,
                suspend, or revoke a license; to cease and desist from a given practice or
                activity; or to take such other action as may be proper. The Commission's
                order issuing authority under the Atomic Energy Act of 1954, as amended
                (AEA), Section 161 extends to any area of licensed activity that the
                Commission deems necessary to promote the common defense and
                security or to protect health or to minimize danger to life or property. 1
                Commission regulations provide that orders may be issued to non-
                licensees, including holders of NRC approvals (e.g. NRC certificates of
                compliance, early site permits, standard design certifications, quality
                assurance program approvals), applicants for NRC approvals, and non-
                licensed individuals and their employees, including contractors and
                subcontractors.

                The enforcement program supports the agency’s overall safety and
                security mission, and the NRC Enforcement Policy and NRC Enforcement
                Manual (Manual)—maintained by the Office of Enforcement—are the
                primary sources of guidance for NRC staff implementing the enforcement
                program. According to the Manual, order-issuing authority resides in the
                Offices of Enforcement, New Reactors, Nuclear Reactor Regulation,
                Nuclear Material Safety and Safeguards, Federal and State Materials and
                Environmental Management Programs, the Chief Financial Officer, and the
                regional offices. The Office of International Programs (OIP) has issued
                orders. The Offices of Nuclear Security and Incident Response, the
                General Counsel, and Investigations are not order-issuing offices, however,
                these offices may provide supportive roles in preparing and drafting orders,
                the hearing process, and following up on orders after issuance.

                Order followup is dependent upon the type of order, and may consist of
                inspection activity, tracking, and order closure. NRC issues various types

1
 NRC implements AEA Section 161 through Title 10, Code of Federal Regulations (10 CFR), Part 2,
“Rules of Practice for Domestic Licensing Proceedings and Issuance of Orders.” 10 CFR Part 2, Subpart
B, “Procedure for Imposing Requirements by Order, or for Modification, Suspension, or Revocation of a
License, or for Imposing Civil Penalties,” describes the formal procedures that NRC uses to implement its
enforcement authority.


                                                    1
                                                     Audit of NRC’s Use of Orders



of orders such as transfer, security, safety, and nonpayment of license and
inspection fee orders; the type of order and/or language in the order
determines the level of followup needed. Some program and regional
offices have responsibilities to follow up on orders. For example, the
regions are responsible for tracking, inspection, and followup of actions
contained in Alternative Dispute Resolution confirmatory orders involving
wrongdoing cases for their region.




                              2
                                                                 Audit of NRC’s Use of Orders



II.    OBJECTIVE

           The audit objective was to evaluate the efficiency and effectiveness of
           NRC’s documentation, verification, and closure process for issued orders.
           Appendix A of this report contains information on the audit scope and
           methodology.




III.   FINDINGS

           Based on the Office of the Inspector General’s (OIG) review of followup for
           selected orders, OIG did not identify instances where the agency did not
           follow up on the recipients’ implementation of the requirements stipulated in
           orders. However, the efficiency and effectiveness of NRC’s
           documentation, verification, and closure process for issued orders can be
           improved. Specifically, opportunities exist to:

           1)     Enhance agency guidance defining order types and for the followup,
                  tracking, and closure of orders.

           2)     Obtain updated documented delegations of authority for issuing
                  orders for selected offices.


           A. ORDER GUIDANCE

           Guidance for following up on orders should be clear and comprehensive;
           yet, this is not the case for all types of NRC orders. This is because some
           offices have not identified, documented, and coordinated order followup,
           tracking, and closure requirements. Improvements to the guidance on
           orders would support NRC’s knowledge management efforts and would
           better inform licensees and the public of NRC’s order process.

           Order Guidance Should Be Clear and Comprehensive

           To be effective, agency guidance should be clear and comprehensive.
           During an agencywide project to revise the NRC’s management directive
           system, NRC stakeholders—including staff who review, author, or use
           NRC guidance—confirmed the importance of an effective system of

                                          3
                                                       Audit of NRC’s Use of Orders



guidance to help them understand and carry out their responsibilities. To
be truly effective, guidance must be high-profile, easily accessible, trusted,
user-friendly, current, accurate, and comprehensive. Guidance that is
more specific than the management directives—including guidance on
NRC’s followup process for orders—should also be concise and specific,
and clearly communicate NRC’s intent and expectations to facilitate staff in
implementing a fully successful process for following up on orders.

Guidance for Followup of Orders Is Not Clear and Comprehensive

The guidance for order followup is not clear and comprehensive in that not
all program and regional offices that follow up on orders cited relevant
guidance needed to document the order followup, tracking, and closure
process described by agency staff. Not all offices and regions provided
OIG with guidance describing their respective process for following up on
orders. Some offices reported having no relevant guidance for followup of
orders. For those offices that did provide guidance, the guidance ranged
from a verbal description of the process to various types of documents
including office instructions, inspection procedures, memoranda, and/or
agencywide enforcement procedures that do not include specific
information needed to document their followup, tracking, and closure of the
various order types described by agency staff.

Followup Requirements and Expectations Have Not Been Documented
and Coordinated

Guidance on order followup is not clear and comprehensive because some
offices have not identified, documented, and coordinated the requirements
of the followup process—including inspection activity, and order tracking
and closure—for the types of orders for which they are responsible.

In some instances, when asked about the process for following up on
orders, staff members stated that orders are used for high-profile or
significant agency actions and, therefore, staff members are already aware
of the followup needed for the issued orders. Additionally, staff members
stated that under some circumstances, they do not have to follow up on
orders. However, NRC has not documented this expectation. Other
offices reference the Manual as their source for order followup guidance,
but concepts—such as the applicability of followup options, tracking, and
closure—are not addressed in the Manual. The Manual does not provide


                               4
                                                      Audit of NRC’s Use of Orders



followup procedures and expectations for all program and regional offices.
For example, the Manual is silent on whether all, some, or none of the
different types of orders require followup; the extent of verification needed
for followup on orders; and whether orders need to be tracked for purposes
of monitoring the recipient’s progress in meeting the requirements of the
order.

The Office of Enforcement is responsible for maintaining the Manual;
however, Office of Enforcement staff stated that they cannot address
requirements and expectations for all order types, followup, tracking, and
closure without coordination with and input from other NRC offices. In fact,
the Manual only addresses followup for a single type of order, the
Alternative Dispute Resolution related order. The Manual mentions other
types of orders—including security, safety, and non-enforcement related
orders—yet does not consistently provide clear definitions of each type or
any delineation between the types of followup expected for each. For
example, staff explained that transfer orders do not require additional
followup or closure, whereas security and safety related orders may require
regional inspections to verify the recipients’ implementation of items in the
orders.

Impact on Knowledge Management and Agency Accountability


Without clear and comprehensive guidance on how NRC follows up on
orders, NRC may not be able to meet its knowledge management goals,
and places licensees and the public at a disadvantage with regard to
understanding NRC’s processes for order followup.

Knowledge management consists of a continuous, disciplined, and timely
process of identifying, collecting, and using information to better
accomplish NRC activities. Without a documented process of followup for
all the various types of orders NRC issues, NRC must rely on experienced
staff to teach them the process. During the audit, staff also explained that
they had to figure out how to follow up on orders without the benefit of any
documentation of the process.

NRC promulgates “Openness,” stating, “Nuclear regulation is the public's
business, and it must be transacted publicly and candidly.” Essentially,
openness helps the licensees and the public hold public officials
accountable. Full disclosure and transparency of the agency’s process for

                               5
                                                      Audit of NRC’s Use of Orders



followup on orders—which are predominantly issued to licensees and/or
the public—assists in this accountability. Until the agency provides a
documented process for followup for all the various types of orders NRC
issues, licensees and the public will be left to accept on good faith NRC’s
representation of the process at the time the process is ongoing.


Recommendations

OIG recommends that the Executive Director for Operations:

      1. Identify and document order followup requirements and/or revise
         the NRC Enforcement Policy, as appropriate, and Manual to
         include, for each type of order, descriptions of the order type,
         definitions, and expectations for order followup, tracking, and
         closure.

OIG recommends that the Chief Financial Officer:

      2. Identify and document order followup requirements for Chief
         Financial Officer issued orders and/or coordinate with Office of
         Enforcement staff to revise the NRC Enforcement Policy, as
         appropriate, and Manual to include definitions, and expectations
         for order followup, tracking, and closure.

OIG recommends that the Director, Office of International Programs:

       3. Identify and document order followup requirements for Office of
          International Programs issued orders and/or coordinate with
          Office of Enforcement staff to revise the NRC Enforcement
          Policy, as appropriate, and Manual to include definitions, and
          expectations for order followup, tracking, and closure.




                               6
                                                      Audit of NRC’s Use of Orders



B. DELEGATIONS OF AUTHORITY

Commission authorities, including the authority to issue orders, may be
delegated as per the AEA. The delegations of authority to issue orders for
three key officers—OIP Director, Executive Director for Operations (EDO),
and Chief Financial Officer (CFO)—is documented inconsistently.
Specifically, the CFO’s authority to issue orders was delegated via a
Chairman’s memo, whereas agency staff have been unable to locate a
similar document for the OIP Director and the EDO. Agency staff have not
sought a similar updated documented delegation of authority for the OIP
Director and the EDO to issue orders. Absent an updated documented
delegation of authority to issue orders, the agency could face delays in
pursuing enforcement of orders in the event of noncompliance by an order
recipient.

Commission Authorities May Be Delegated

The AEA grants the Commission various authorities, including the authority
to issue orders, and provides for the delegation of Commission authorities
to agency staff. Section 161 of the AEA, General Provisions, states that;

             In the performance of its functions the
             Commission is authorized to establish by rule,
             regulation, or order, such standards and
             instructions to govern the possession and use of
             special nuclear material, source material, and
             byproduct material as the Commission may deem
             necessary or desirable to promote the common
             defense and security or to protect health or to
             minimize danger to life or property.

The AEA further describes how the Commission may, in turn, delegate its
authorities in Section 161(n): the Commission is authorized to, “delegate to
the General Manager or other officers of the Commission any of those
functions assigned to it under this Act.”




                              7
                                                    Audit of NRC’s Use of Orders



Documentation of Authorities for Issuing Orders Is Inconsistent Among
Offices

OIG auditors sought assistance from agency staff in locating the
Commission’s delegation of authority to three primary officers—including
the OIP Director, the EDO, and the CFO—and found the documented
authorities to be granted inconsistently. Staff located a January 1997
memorandum from the Chairman to the CFO that delegated various
authorities to the CFO. Among these authorities was one that specifically
delegated the authority to issue orders to revoke or suspend a license for
nonpayment of license fees. However, staff were unable to locate a similar
memo or documentation for OIP Director and EDO.


Despite the staff’s inability to locate a Commission or Chairman
memorandum or similar document granting order-issuing authority to the
OIP Director and EDO, the NRC’s Office of the General Counsel (OGC)
stated that the OIP Director and EDO have a legal authority to issue
orders. As such, OGC provided legal analyses of various regulations,
Management Directives, and other documents that OGC asserts
demonstrates this authority.

Offices Have Not Sought Updated Documentation


Two offices—OIP and Office of the Executive Director for Operations
(OEDO)—have not sought an updated documented delegation of authority
from the Commission to issue orders. Historically, with years of practice
issuing orders, OIP and OEDO did not recognize the need for seeking an
updated documented delegation of authority from the Commission.

Risks for NRC

Absent an updated, documented delegation of authority from the Chairman
or Commission to the OIP Director and the EDO to issue orders, the
agency could face delays in pursuing enforcement of orders issued by OIP
and OEDO in the event of noncompliance by an order recipient. Given that
OGC’s analysis of the legal authority to issue orders is based on multiple
documents, agency managers and staff stated that the authority could be
made clearer. From a documentation perspective, the agency would be
better served by having updated documentation similar to the Chairman’s
1997 memorandum to the CFO.

                             8
                                                    Audit of NRC’s Use of Orders



Recommendations


OIG recommends that the Director, Office of International Programs:


       4. Seek an updated, documented delegation of authority to issue
          orders from the Chairman and/or Commission.


OIG recommends that the Executive Director for Operations:


       5. Seek an updated, documented delegation of authority to issue
          orders and to re-delegate that authority from the Chairman
          and/or Commission.




                             9
                                                            Audit of NRC’s Use of Orders



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

         1. Identify and document order followup requirements and/or revise the
            NRC Enforcement Policy, as appropriate, and Manual to include, for
            each type of order, descriptions of the order type, definitions, and
            expectations for order followup, tracking, and closure.

        OIG recommends that the Chief Financial Officer:


         2. Identify and document order followup requirements for Chief Financial
            Officer issued orders and/or coordinate with Office of Enforcement
            staff to revise the NRC Enforcement Policy, as appropriate, and
            Manual to include definitions, and expectations for order followup,
            tracking, and closure.

        OIG recommends that the Director, Office of International Programs:


         3. Identify and document order followup requirements for Office of
            International Programs issued orders and/or coordinate with Office of
            Enforcement staff to revise the NRC Enforcement Policy, as
            appropriate, and Manual to include definitions, and expectations for
            order followup, tracking, and closure.


        OIG recommends that the Director, Office of International Programs:


         4. Seek an updated, documented delegation of authority to issue orders
            from the Chairman and/or Commission.


        OIG recommends that the Executive Director for Operations:


         5. Seek an updated, documented delegation of authority to issue orders
            and to re-delegate that authority from the Chairman and/or
            Commission.




                                     10
                                                                Audit of NRC’s Use of Orders



V. AGENCY COMMENTS

   On August 28, 2012, OIG issued the discussion draft of this report to the EDO.
   OIG met with NRC management and staff on September 6, 2012, at an exit
   conference to discuss the draft report content. At this meeting, the agency
   provided informal comments, which OIG subsequently incorporated into the draft
   report, as appropriate. NRC management and staff reviewed the revised draft
   report and opted not to provide formal comments for inclusion in this final report.




                                        11
                                                               Audit of NRC’s Use of Orders



                                                                            Appendix A


OBJECTIVE, SCOPE, AND METHODOLOGY


        OBJECTIVE

        The audit objective was to evaluate the efficiency and effectiveness of
        NRC’s documentation, verification, and closure process for issued orders.

        SCOPE

        This audit focused on reviewing the management and internal controls over
        the agency’s followup of orders, including the documentation, verification,
        and closure process, issued between 2005 and 2011. We conducted this
        performance audit at NRC headquarters in Rockville, MD, from February
        2012 to July 2012. Internal controls related to the audit objectives were
        reviewed and analyzed. Throughout the audit, auditors were aware of the
        possibility or existence of fraud, waste, or misuse in the program.

        METHODOLOGY

        To accomplish the audit objective, OIG reviewed Federal and internal
        agency guidance, including the AEA, as amended, the Code of Federal
        Regulations, the NRC Enforcement Policy, and the NRC Enforcement
        Manual. OIG also reviewed various management directives, inspection
        manual chapters and procedures, and office-specific guidance on orders.
        To evaluate the agency’s followup of issued orders, OIG selected a
        judgmental sample of orders issued between 2005 and 2011 and reviewed
        order followup for 38 of 703 orders that 11 offices and regions indicated
        NRC issued during that period. Furthermore, OIG interviewed agency
        staff, including all program and regional office points-of-contact identified
        by the agency, to obtain staff insights into the agency’s use of orders.

        We conducted this performance audit in accordance with generally
        accepted Government auditing standards. Those standards require that
        we plan and perform the audit to obtain sufficient, appropriate evidence to
        provide a reasonable basis for our findings and conclusions based on our
        audit objectives. We believe that the evidence obtained provides a



                                      12
                                                    Audit of NRC’s Use of Orders



reasonable basis for our findings and conclusions based on our audit
objectives.

The work was conducted by R.K. Wild, Team Leader; Vicki Foster, Audit
Manager; Kevin Nietmann, Senior Technical Advisor; Andrea Ferkile,
Senior Analyst; Ziad Buhaissi, Senior Auditor; and Dana Furstenau,
Student Analyst.




                             13
